U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

February 10, 2021

Sebhat Afework v. Velanta Monique Babbitt, et al.,
S.Ct No. 20-925

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 7,
2021 and placed on the docket on January 11, 2021. The government’s response is due on
February 10, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 12, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-0925
AFEWORK, SEBHAT
VELANTA MONIQUE BABBITT, ET AL.

MATTHEW S. FREEDUS
FELDESMAN TUCKER LEIFER FIDELL LLP
1129 20TH STREET, N.W.
4TH FLOOR
WASHINGTON, DC 20036
202-466-8960
MFREEDUS@FELDESMANTUCKER.COM

